CLOSEOUT MEMORANDUM
CONFIDENTIAL

Proposal:             Received
                      Awarded: :
                                           Reviewed:   I-
The written record d
tion we received that
                                                  e NSF evaluation




                                                  -
                                      ks   listed as one o




 We took a strict view of the oral anonymous allegation regarding
 involvement in NSF1s processing, awarding and administration of
             proposal.    We did not look into the mechanism or
-support
 attending the
                    for either
 allegation we received.
                               th.
                            meeting as   is was not a part of the
                                                                -
                             Our backlog of allegations requirinq
 evaluation does not, at this time, permit this extension. -
